PROVIDED TO
CROSS CITY C.I. ON

NO. 20-7406

LR

JUL 0 2 2021
FOR MAILING 04

IN THE
SUPREME COURT OF THE UNITED STATES

LIONEL ROBINSON — Petitioner
vs.

MARK INCH, SECRETARY FLORIDA DEPARTMENT OF
CORRECTIONS, ET. AL, — Respondents

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES CIRCUIT COURT, 11TH CIRCUIT

PETITION FOR REHEARING

LIONEL ROBINSON, DC# G15804
Cross City Correctional Inst.
568 N.E. 255th Street
Cross City, Florida 32628
Petitioner, pro se

QUESTIONS PRESENTED ON REHEARING
The question concerns what attorney conduct may be considered in
determining the existence of extraordinary circumstances to warrant
equitable tolling. In Holland v. Florida, infra, this Court expressly rejected
importing agency principles into the equitable tolling context. But circuit
courts have interpreted this Court's later decision, Maples v. Thomas, infra,
to do just that, event though agency principles were applied in the context of
cause to avoid a state procedural bar. If agency principles apply to equitable
tolling claims, then only attorney misconduct that amounts to abandonment
may be considered. In this context, the question presented on rehearing,
which involves a substantial ground not addressed in the petition for writ of
certiorari, is:

1. Does Maples v. Thomas alter Holland v. Florida's holding on
attorney error and rejection of agency principles into the
equitable tolling context?

TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES CITED

ii

STATEMENT OF CASE AND FACTS

1

REASONS FOR GRANTING REHEARING AND CERTIORARI

3

From this Court's decision in Maples v. Thomas, the
Eleventh Circuit has extracted a bright line rule that
prevents case-specific inquiry into attorney misconduct
5
that does not rise to the level of abandonment.
The Eleventh Circuit precedent is irreconcilable with
this Court's precedent on what attorney conduct
amounts to "extraordinary circumstances" in equitable
8
tolling cases, which led to an incorrect result
The question is important because it affects a large
number of prisoners whose first federal habeas petition
10
is dismissed due to a non-jurisdictional time bar.
CONCLUSION

INDEX TO SUPPLEMENTAL APPENDICES
APPENDIX 2: Letter from Clerk of this Court
APPENDIX 3: Excerpts from petition for writ of habeas corpus

11

TABLE OF AUTHORITIES CITED

Cases

Benzant v. Jones, 2017 U.S. Dist. LEXIS 174652 (Fla. S.D.10/23/2017)

7

Bosse v. Oklahoma, 137 S. Ct. 1,(2016)

6

Cadet v. Fla. Dep't of Corr., 853 F.3d 1216 (11th Cir. 2017)

1, 5, 7, 9, 11

Coleman v. Thompson, 501 U.S. 722 (1991)
Holland v. Florida, 130 S. Ct. 2549 (2010)

3, 4
3, 4, 6, 7, 9

Jones v. Davis, 922 F.3d 271 (5th Cir. 2019)
Lonchar v. Thomas, 517 U.S. 314 (1996)
Luna v. Kernan, 784 F.3d 640 (9th Cir. 2015)

7
11
7

Maples v. Thomas, 132 S. Ct. 912 (2012)

4, 6, 7, 9

Martinez v. Ryan, 132 S. Ct 1309 (2012)

8

Mathis v. U.S., 136 S. Ct. 2243 (2016)

6

Nassiri v. Mackie, 967 F.3d 544 (6th Cir. 2020)

7

Rivas v. Fischer, 687 F.3d 514 (2d Cir. 2012)

7

Rodriguez de Quijas v. Shearson/Am. Exp., Inc., 490 U.S. 477 (1989)

4

U.S. v. Halcrombe, 700 Fed. App'x 810 (10th Cir. 2017)

7

Statutes

3

28 U.S.C. § 2244(d)

ii

STATEMENT OF CASE AND FACTS
The Eleventh Circuit granted a certificate of appealability to decide whether
the district court erred in its determination that Petitioner was not entitled to
equitable tolling of the statute of limitations period. Petitioner's initial brief in the
Eleventh Circuit argued that there were extraordinary circumstances in this case:
Attorney David Jay Bernstein failed to timely notify Petitioner that his 9.141
petition had been denied; and Bernstein, contrary to his contractual and oral
agreement, failed to file Petitioner's Rule 3.850 motion so as to protect and preserve
Petitioner's ability to timely seek federal habeas corpus review. The totality of the
circumstances, however characterized by Respondents (abandonment/gross
negligence), entitled him to equitable tolling.
The Eleventh Circuit agreed that Bernstein's representation was not flawless
and that taking Petitioner's allegations as true, Bernstein arguably was negligent
on several occasions. Appendix A at 9. Ultimately, the Court reiterated its
previous holding, and indeed held in this case, that "negligence, even gross or
egregious negligence, does not, by itself, rise to the level of abandonment or qualify
as an extraordinary circumstance for purpose of equitable tolling. Appendix A at 9,
8, citing Cadet v. Fla. Dep't of Corr., 853 F.3d 1216 (11th Cir. 2017) . Since
Petitioner had failed to prove his alleged extraordinary circumstances, it was
"unnecessary"

for the court to consider whether he was "adequately diligent."

Appendix A at 10.

1

The petition for writ of certiorari in this Court presented the following
question: "Does gross negligence on the part of postconviction counsel in the filing of
timely postconviction motions constitute reasons warranting application of
equitable tolling for filing a petition for writ of federal habeas corpus?" By court
order, the Attorney General of Florida filed a Brief in Opposition. It restated the
question as 'whether the Eleventh Circuit erred in concluding that the attorney did
not abandon Petitioner." The argument in opposition is that Petitioner waived the
question that he presented by failing to raise it below; this case presents only a
narrow fact-bound question; no split of authority is implicated; and the decision
below is correct. Brief in Opposition at ii. The Brief in Opposition was both factually
inaccurate and misleading. Apart from that, it was not forthright regarding this
Court's jurisdictional considerations under Supreme Court Rule 101. The Court
denied the petition for writ of certiorari on June 14, 2021.
On June 16, 2021, the clerk of this court returned Petitioner's reply brief
unfiled and advised him to file the instant request for rehearing. Appendix 2.

1:

Respondents argued the case implicates no important, broadly applicable
question of law, it is simply an exercise in error correction. Brief in Opposition at 8.
Actually, the issue involves a need for this Court to clarify whether agency
principles have been imported into the equitable tolling analysis where a habeas
petitioner stands to forever lose an opportunity to have a first habeas petition
considered by a federal court (infra at I & II). Respondents argued there is no
conflict because the Eleventh Circuit faithfully applied Holland and Maples. Brief in
Opposition at 8. Actually, the Eleventh Circuit has so misinterpreted the holdings
in Maples that its decision is in conflict with Holland (infra at I.A.). Respondents
argue there are no "compelling reasons" for granting review because the decision
below implicates no split of authority. Brief in Opposition at 15. Actually, there is
disagreement among the circuits on the question presented (infra at I.B.).
2

REASONS FOR GRANTING REHEARING AND CERTIORARI
Title 28 U.S.C. § 2244(d) is subject to equitable tolling because the AEDPA
statute of limitations defense is not jurisdictional and congress did not seek to end
every possible delay at all costs. Holland v. Florida, 130 S. Ct. 2549, 2560, 2562
(2010). Equitable tolling is appropriate if extraordinary circumstances prevented
timely filing. Id. Courts must exercise its equitable powers on a case-by-case basis.
Id. at 2563. Courts of equity have sought to relieve hardships which arise from hard
and fast adherence to more absolute legal rules, which, if strictly applied, threaten
the evils of archaic rigidity. Id. Noting that the flexibility inherent in equitable
procedure enables courts to meet new situations that demand equitable
intervention, and to accord all the relief necessary to correct particular injustices,
id, this Court explained why agency principles govern the "extraordinary
circumstance" analysis in cases involving attorney error that led to a procedural bar
in state court but not attorney error that led to a non-jurisdictional federal time bar,
. . . in the context of procedural default, we have previously stated,
without qualification, that a petitioner must "bear the risk of attorney
error." Coleman v. Thompson, 501 U.S. 722, 752-753 [ ] (1991). But
Coleman was a case about federalism, in that it asked whether federal
courts may excuse a petitioner's failure to comply with a state court's
procedural rules, notwithstanding the state court's determination that
its own rules had been violated. Equitable tolling, by contrast, asks
whether federal courts may excuse a petitioner's failure to comply with
federal timing rules, an inquiry that does not implicate a state court's
interpretation of state law. Holland does not argue that his attorney's
misconduct provides a substantive ground for relief, cf. 2254(i), nor is
this a case that asks whether AEDPA's statute of limitations should be
recognized at all. Rather, this case asks how equity should be applied
once the statute is recognized. And given equity's resistance to rigid
rules, we cannot read Coleman as requiring a per se approach in this
context.

3

Holland, 130 S. Ct. 2563. With these principles in mind, the Court held: "serious
attorney misconduct" qualifies as an extraordinary circumstance warranting
equitable tolling, but "a garden variety claim of excusable neglect" or miscalculation
of a deadline does not. See Id. Only the this Court has the prerogative of overruling
or modifying those holdings Rodriguez de Quijas v. Shearson/Am. Exp., Inc., 490
U.S. 477, 484 (1989).
Two years later, in a case that is often cited to decide equitable tolling claims,
this Court reiterated the rule in Coleman, that under well-settled principles of
agency law, the principal bears the risk of negligent conduct on the part of his
agent. Maples v. Thomas, 132 S. Ct. 912, 922 (2012) (citing Coleman, 501 U.S. at
753-754). However, this Court was not analyzing "extraordinary circumstances" for
the purpose of equitable tolling as it did in Holland. Rather, the Court inquired
"whether Maples has shown that his attorneys of record abandoned him, thereby
supplying the 'extraordinary circumstances beyond his control,' necessary to lift the
state procedural bar to his federal petition." Id. 132 S. Ct. 924 (bold print added).
On behalf of Petitioner, and all of those who are similarly situated, this Court
should grant rehearing and certiorari to provide clarification of the effects of
Maples, a case involving attorney misconduct in the context of cause to overcome a
state-imposed procedural bar, on the holding in Holland, a case involving attorney
misconduct in the context of equitable tolling to overcome a non-jurisdictional

4

federal time bare. The Court should do this not because "extraordinary
circumstance" in the context of attorney misconduct can be precisely defined, but
because the Eleventh Circuit has fashioned an improper rule, a rule that forbids
euitable tolling on the basis of attorney error that falls short of abandonment. The
Eleventh Circuit insists on restricting the exercise of its equitable powers to labels,
and that is contrary to the core holding in Holland, 130 S. Ct. at 2561-63 (rejecting
as "too rigid" the rule that even attorney error conduct that is "grossly negligent"
cannot justify equitable tolling of AEDPA's limitations period absent proof of "bad
faith, dishonesty, divided loyalty, mental impairment or so forth on the lawyer's
part.").
I.

From this Court's decision in Maples v. Thomas, the Eleventh
Circuit has extracted a bright line rule that prevents casespecific inquiry into attorney misconduct that does not rise to
the level of abandonment.

The Eleventh Circuit relied on Maples to fashion "the appropriate standard
for gauging when attorney error amounts to extraordinary circumstance." See
Cadet, 853 F.3d at 1221, 1223-25. Over a well reasoned dissenting opinion, it held
that "attorney negligence, even gross or egregious negligence, does not by itself
qualify as 'extraordinary circumstance' for purpose of equitable tolling; either
abandonment of the attorney-client relationship . . . or some other professional
misconduct or some other extraordinary circumstance is required." Id. at 1277. The
Eleventh Circuit relied on its decision in Cadet to determine that Petitioner did not
2:

Cf. Cadet, 853 F.3d at 1226 ("the Holland opinion cannot be read by itself.
It must be read in light of the Court's explanation of Holland eighteen months later
in its Maples decision.").
5

demonstrate extraordinary circumstances because although his attorney's conduct
was negligent, it did not rise to the level of abandonment. Appendix A at 9-10.

A. The Eleventh Circuit's decision is erroneous as it misconstrues
the decision in Maples v. Thomas as it applies to Holland v.
Florida.
In Cadet, the Eleventh Circuit wrote: "What the Maples decision says is that
Justice Alito got it right in Holland, that 'attorney error, however egregious' is not
enough for equitable tolling." Id. at 1227. Citing a footnote in Maples, it concluded
that this Court "held that there was 'no reason . . . why the distinction between
attorney negligence and attorney abandonment should not hold in both' the
equitable tolling and procedural default context." Id. at 1225. The Eleventh Circuit
is wrong on both accounts. In Holland this Court did not hold that attorney error is
never enough for equitable tolling. In Maples, this Court also did not "hold" in a
footnote that it was modifying or overruling the holdings in Holland. See Bosse v.
Oklahoma, 137 S. Ct. 1, 2, (2016) (per curiam) (instructing against construing one of
this Court's opinions as "implicitly overrul[ing]" a previous opinion).
The opinion in Holland expressly rejected importing agency principles into
the equitable tolling context, recognizing instead that attorney error can constitute
extraordinary circumstances for purposes of equitably tolling the AEDPA deadline3.
Holland, 560 U.S. at 650-52. Holland was not overruled just two years later in
Maples, where the Court relied on agency principles to excuse a procedural default
and merely cited Holland as "instructive" on that issue. Maples, at 281-82.
3:

See Mathis v. U.S., 136 S. Ct. 2243, 2254 (2016) ("[A] good rule of thumb for
reading [Supreme Court] decisions is that what they say and what they mean are
one and the same[.]").
6

B. There is a "burgeoning circuit split" over whether attorney error
must amount to effective abandonment for it to constitute
extraordinary circumstances warranting equitable tolling.
There is a "burgeoning circuit split" over whether attorney wrongdoing must
amount to effective abandonment for it to constitute extraordinary circumstances
warranting equitable tolling, and the Fifth and Sixth Circuits declined to express a
view on the issue. Jones v. Davis, 922 F.3d 271, 279 (5th Cir. 2019) ; Nassiri v.
Mackie, 967 F.3d 544, 546 (6th Cir. 2020). Whether Maples alters Holland is a subject of
debate among the circuits. The Second Circuit, like the Eleventh Circuit, has ruled
that it does, holding that Maples means attorney wrongdoing must rise to effective
abandonment—an act that severs the agency relationship—to constitute
extraordinary circumstances in the equitable tolling setting. Rivas v. Fischer, 687
F.3d 514, 538 n.33 (2d Cir. 2012). On the other hand, the Ninth Circuit has said it is
unclear whether this Court intended to hold in Maples that attorney misconduct
short of abandonment can no longer serve as a basis for equitable tolling. Luna v.
Kernan, 784 F.3d 640, 648-49 (9th Cir. 2015). But, because Maples did not explicitly
overrule Holland, it ruled that Holland's holding —egregious attorney misconduct of
all stripes may serve as a basis for equitable tolling—remains good law. Id. at 649.
The dissenting opinion in Cadet is aligned with the Ninth Circuit's holdings. See
Cadet. 853 F.3d 1237-40 (WILSON, Circuit Judge, dissenting); Benzant v. Jones,
2017 U.S. Dist. LEXIS 174652 (Fla. S.D. 10/23/2017) (same); U.S. v. Halcrombe, 700
Fed. App'x 810, 815 (10th Cir. 2017) (recognizing that an attorney's misconduct or
"egregious behavior" may also "create an extraordinary circumstance that warrants
equitable tolling.")(quoting Holland, 560 U.S. at 651.) Granting both rehearing and
7

certiorari provides an opportunity for this Court to clarify whether agency
principles really do govern the analysis when attorney misconduct is alleged in
equitable tolling cases and will provide guidance to federal courts in equitably
resolving the question of extraordinary circumstances.
C. Even if agency principles have been imported into the equitable
tolling analysis, Martinez v. Ryan implicates additional
considerations.
Even if Coleman's agency principles do inform the analysis, only two months
after deciding Maples, this Court held, as an equitable matter, that an attorney's
ignorance or inadvertence in an initial collateral review proceeding does qualify as
cause to excuse a procedural default so long as the petitioner demonstrates that
postconviction counsel was ineffective under the standards of Strickland v.
Washington, 466 U.S. 668 (1984). See Martinez v. Ryan, 132 S. Ct 1309, 1315, 1318
(2012). Martinez created this exception to protect prisoners with a potentially
legitimate ineffective-assistance-of-counsel claim. Id. at 1315. Surely Maples, which
was argued the same day Martinez, was not intended to import into the equitable
tolling analysis a more exacting standard to restrict a federal court's equitable
power to excuse an untimely petition based upon the case specific facts because it
could unnecessarily and completely deprive the petitioner of habeas review.

II.

The Eleventh Circuit precedent is irreconcilable with this
Court's precedent on what attorney conduct amounts to
"extraordinary circumstances" in equitable tolling cases,
which led to an incorrect result.

This Court has instructed that in determining whether to grant extra time to
file a federal habeas petition, federal courts must avoid the imposition of a

8

mechanical rule and consider on a case-by-case basis any attorney misconduct that
exceeds garden-variety negligence. Holland, 130 S. Ct. at 2564. But from this
Court's decision in Maples, the Eleventh Circuit extracted a mechanical rule that
denies case-specific inquiry when attorney error cause the time bar. Cadet, 853 F.3d
at 1277. It consistently imposes a rule that attorney negligence, even gross
negligence, alone can never justify granting extra time to file a federal habeas.
petition. Appendix A at 9, 8. It holds that the attorney misconduct in this case
constituted only negligence, thereby denying Petitioner the extra time he needs to
have his constitutional claims considered by a federal court.
The attorney misconduct in this case exceeded garden-variety negligence and
compels a case-specific inquiry into whether Petitioner is entitled to equitable
tolling. The Magistrate judge found that Petitioner alleged the following to support
his equitable tolling claim: he tasked his sister with finding and paying for an
attorney who could promise to file a Rule 3.850 motion in time to preserve
Petitioner's one-year federal habeas filing deadline; Attorney David Jay Bernstein
orally agreed to file a Rule 3.850 motion before Petitioner's federal filing deadline
expired; after having retained Bernstein, Petitioner wrote Bernstein on October 24,
2014, and November 18, 2014, asking why Bernstein had not contacted him or his
family; Bernstein did not respond to Petitioner's letters and instead filed a state
habeas petition on November 24, 2014; Petitioner wrote Bernstein on December 5,
2014, inquiring about the status of the state habeas petition; on December 16, 2014,
Petitioner wrote Bernstein and told him his lack of communication was

9

unprofessional; on January 19, 2015, Petitioner wrote Bernstein threatening to file
a Florida State Bar Association complaint against him; on February 11, 2015,
Bernstein improperly filed Petitioner's original Rule 3.850 motion because he failed
to have Petitioner sign and verify the motion; on March 27, 2015, Petitioner wrote
Bernstein inquiring on the status of the 9.141 petition, but Bernstein did not
respond to the letter; without explaining to Petitioner that his original motion has
been procedurally dismissed, on July 31, 2015, Bernstein mailed Petitioner an
amended Rule 3.850 motion and instructed Petitioner to sign the oath and return it
to his office; Petitioner returned the signed oath on August 4, 2015; Petitioner's
federal deadline expired between dismissal of his original Rule 3.850 motion and
the filing of the corrected motion; Bernstein wrote Petitioner on June 28, 2016, to
inform him that his Rule 3.850 motion was denied and Bernstein's representation
was concluded; on April 5, 2017, and April 21, 2017, Petitioner wrote Bernstein to
inquire about the status of the state habeas petition; and Bernstein responded to
Petitioner's letters on April 28, 2017, informing Petitioner of all relevant dates.
Appendix C at 7, 12-13, 17. Petitioner attached affidavits and other documents to
support his allegations. Appendix C at 13-14. See also Appendix 3 at 31-48.

III. The question is important because it affects a large number of
prisoners whose first federal habeas petition is dismissed due
to a non-jurisdictional time bar.
The dissent pointed out in Cadet, almost five years ago that "[a]pproximately
one hundred opinions and report and recommendations have cited this panel's
initial opinion, many for the proposition that only abandonment merits equitably

10

tolling the limitations period for a federal habeas petition." Cadet, 853 F.3d 1238.
Moreover, this Court has said: "Dismissal of a first federal habeas petition is a
particularly serious matter, for that dismissal denies the Petitioner the protections
of the Great Writ entirely, risking injury to an important interest in human liberty."
Lonchar v. Thomas, 517 U.S. 314, 324, (1996).

CONCLUSION
This pro se Petitioner has neither the knowledge, time, nor resources to fully
and effectively address the recondite issues presented herein. Due to the
significance of the question presented, this Court should exercise its discretionary
powers to appoint counsel to the extent that it may be helpful in properly framing
the issue for review. In addition to this, Petitioner prays this Court grant rehearing.

Respectfully submitted,

Date: July ...-aNd

,

2021
Lionel Robinson, DC# G15804
Cross City Correctional Inst.
568 N.E. 255th Street
Cross City, Florida 32628

11

Appendix 3
Excerpts from petition for writ of habeas corpus

Case 1:17-cv-00/M-MW-CJK Document 1 Filed 08".Th17 Page 29 of 48
Case: 19-10428 Date Filed: 10/04/2019 Page: 40 of 566

Equitable Tolling Time
Background And Procedural History
On May 3, 2012 following a jury trial in the 8th Judicial Circuit Court in and
for Alachua County, Florida, Case No: 01-2010-CF-004836-C Petitioner Lionel
Robinson was found guilty of one count of robbery with a firearm or deadly
weapon and one count of tampering with evidence.
On June 18, 2012, he was sentenced to 30 years in prison on the robbery
with a firearm count, and 5 years on the tampering with evidence count to run
concurrent to count one robbery with a firearm.
Petitioner's Court-Appointed Counsel filed a notice of appeal, on July 6,
2012. The Florida First District Court of Appeal ("First DCA") assigned Case No:
1D12-3291.
The issues raised were: 1.) The circumstantial evidence was legally
insufficient prove that evidence. 2.) Trial Court committed reversible error denying
Appellant's objections to State's preemptory challenge of African-American juror.
Trial Court.committed reversible error denying Appellant's motion for mistrial.
The prosecutor's closing argument was fundamental error for comments on
Appellant's silence and shifted the burden of proof.
On October 17th 2013, the First DCA affirmed the judgment and conviction
per curiam without a written opinion See Lionel Robinson v. State, 123 So.3d 565
(Fla. 1st DCA 2013).
The mandate having been issued on November 4th 2013, since there was no
written opinion the First District Court of Appeal is the highest appellate court
having jurisdiction in Florida.

31

Case 1:17-cv-00f

-MW-CJK Document 1 Filed 08P-\7 Page 30 of 48
Case: 19-10428 Date Filed: 10/04/2019 Page: 41 of 566

Petitioner wrote a letter to the office of Attorney David Jay Bernstein stating
the following: That Petitioner had written other law firms inquiring their assistance
in filing a motion for postconviction relief rule 3.850.
Petitioner explained to attorney David Jay Bernstein that he needed Mr.
Bernstein's law office to file a motion for post-conviction relief under rule 3.850
within a suitable time that would preserve the remaining 90 days of his federal
time. Petitioner explained to the attorney David Jay Bernstein that Petitioner's
federal time was ticking down and the only way Petitioner would retain Mr.
Bernstein to represent Petitioner only if Mr. Bernstein could meet Petitioner's
aforementioned demands to timely file a motion for post-conviction relief under
rule 3.850 that would preserve the remaining 90 days of Petitioner's one year
deadline to file a Federal Habeas Corpus petition.
Petitioner provided attorney David Jay Bernstein with the necessary
information to contact Petitioner's family.
Petitioner's sister was aware of how important it was to preserve the one
year Federal Habeas Corpus deadline, because of Petitioner emphasizing it through
his letters to her, and that it was urgent of her to contact and pay for a lawyer, only
by attorney contacting Petitioner at his facility to see can an attorney meet
Petitioner's requirement.
Petitioner's sister contacted several attorneys and emphasized to these
lawyers how important Petitioner's requirement was, which attorney David Jay
Bernstein agreed. Petitioner's sister told attorney Mr. Bernstein to set up a legal
call with Petitioner at his facility because Petitioner wanted to converse with Mr.
Bernstein about his requirements, and this was the only way Mr. Berstein would
get hired is by Petitioner.

3A

Case 1:17-cv-004P"\MW-CJK Document 1 Filed 08C-\17 Page 31 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 42 of 566

Through a legal call at Petitioner's facility Mr. David Jay Bernstein made an
oral agreement with Petitioner to follow Petitioner's requirement, which is the only
reason petitioner hired attorney, to timely file a 3.850 within a timely manner that
would preserve the one year Federal Habeas Corpus deadline.
Petitioner signed attorney David Jay Bernstein contract on 10-13-14 due to
this oral agreement through the legal call. See Ex. "A": 9-23-14 Letter/Contract
from Mr. David Bernstein.
After this legal call petitioner forwarded all transcripts and documents to Mr.
Bernstein, and Petitioner wrote family to inform them to pay Mr. Bernstein
because he forwarded signed contract to attorney.
Petitioner asserts that he had his family retained David Jay Bernstein with
the understanding that he could and would file 3.850 motion and represent
Petitioner in the postconviction proceedings for the Rule 3.850 motion, and that the
attorney David Jay Bernstein would do so within a timely manner that would
preserve the remainder of the one year deadline Federal Habeas Corpus deadline.
This was an oral agreement that was contemplated and agreed upon by
attorney David Jay. Bernstein, Petitioner and Petitioner's sister.
See Ex. "B". Affidavit of Petitioner and Petitioner's sister.
On October 24, 2014, Petitioner wrote a letter to David Jay Bernstein asking
why he had not contacted him or his family and stated that his family was "calling"
David Jay Bernstein's office.
Petitioner asked how long would it take him to file a 3.850 motion.
Petitioner reiterated to David Jay Bernstein that he and his family paid him and
retained him based upon his promise and assurance that he could and would file a
3.850 and represent Petitioner in a Rule 3.850 proceeding that would preserve the
remaining three months of Petitioner's one year time limit to file his Federal
Habeas Corpus which was set to expire January 15, 2015.
33

Case 1:17-cv-00.(MMW-CJK Document 1 Filed 08(-" 1.7 Page 32 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 43 of 566

Petitioner further stated Petitioner didn't know how much time he had left
on his Federal Habeas Corpus time, and asked David Jay Bernstein to please
"Speed up the Process" on filing the Rule 3.850 motion, so he did not "lose" his
Federal time.
Petitioner mentioned that the mandate in his case on his direct appeal was
November 4, 2013.
On November 18, 2014 Petitioner wrote David Jay Bernstein expressing the
importance that he contact Petitioner and respond back to Petitioner's letter.
On November 21, 2014 Petitioner wrote his family with the intent that his
family call Mr. Bernstein and express their intent to address a complaint to the
Florida Bar because of Mr. Bernstein's lack of communication, and Mr. Bernstein
was utterly shirking his responsibility to file the 3.850 motion what he was paid
for.
On November 12, 2014 attorney David Jay Bernstein out of nowhere filed a
Federal time tolling 9.141, Petition for Writ of Habeas Corpus in the First District
Court of appeal. See: EX. "C"
The issues raised were: Appellate Counsel was Ineffective for failing to
argue that the Trial Court committed fundamental error by failing to give the
proper jury instructions concerning lesser included offenses.
The 9.141 was docketed in the Court on November 24, 2014.
The filing of the 9.141 was not contemplated in the agreement between
David Jay Bernstein, Petitioner, and Petitioner's sister. See Ex. "A", and totally
contrary to the agreement, written and oral.
On December 4, 14 Petitioner received a copy of the 9.141. See: EX. "C"
On December 5, 2014 Petitioner wrote attorney David Jay Bernstein a letter
inquiring into the status of his petition for Writ of Habeas Corpus 9.141, and why

3'1

Case 1:17-cv-00iMW-CJK Document 1 Filed 08, i7 Page 33 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 44 of 566

didn't he file the 3.850 instead of the 9.141 because the 9.141 was not in the
contract signed.
Petitioner begged attorney David Jay Bernstein to respond to his letters to
inform him of what's going on, or either call the facility at Wakulla Correctional
Institution to set up a legal call, which was the only way Petitioner was allowed to
speak to Mr. Bernstein. Further, Petitioner again began inquiring about his Federal
Time, however attorney David Jay Bernstein did not respond.
On December 16, 20.14 Petitioner wrote a letter stating that David Jay
Bernstein was being unprofessional and not communicating with him.
On January 19, 2015 Petitioner wrote another letter again to David Jay
Bernstein and again expressed his intent to file a Bar complaint again him alleging:
Failure to communicate any decisions and/or status of the 9.141, bad faith, utterly
shirking all of his professional responsibilities to file Petitioner's 3.850 motion
within their 'agreement, and that Mr. Bernstein took his family's money and
abandoned him.
On February 11, 2015, David Jay Bernstein filed Petitioner's 3.850 motion:
Ineffective Assistance of Counsel
Alleging Six Ground(s)
Ground One: Trial Counsel was ineffective for failing to object to erroneous jury
instructions concerning lesser included offense(s).
Ground Two: Trial Counsel was ineffective for failing to investigate and call
exculpatory witness Daijanae Wright.
Ground Three: Trial Counsel was ineffective for failing to investigate and call
exculpatory witness Malcolm Carter.

sS

Case 1:17-cv-00( '-MW-CJK Document 1 Filed 08. 17 Page 34 of 48
Case: 19-10428 Date Filed: 10/04/2019 Page: 45 of 566

Ground Four: Trial Counsel was ineffective for failing to object to prosecutor's
impermissible comments on Defendant's silence during trial.
Ground Five: Trial Counsel was ineffective for misadvising Defendant about
,potential ramifications of his testifying and, thereby, dissuading him from
testifying to his detriment; and
Ground Six: Trial Counsel was ineffective for failing to call Malcolm Carter as a
defense witness during... trial.
However, the aforementioned motion for post-conviction relief under rule
3.850 was not sent to Petitioner until March 20, 2015. See: EX. "D"
Attorney David Jay Bernstein never informed Petitioner of the status of the
9.141 filed in the 1' DCA, on November 12, 2014. When Petitioner received
3.850, on .3-27-15 Petitioner wrote Mr. Bernstein inquiring of the status of 9.141
because he was unsure and under the impression that 9.141 might have got denied
due to 3.850 being filed. Mr. Bernstein still didn't respond to Petitioner's letters.
Petitioner then got an amended motion and letter from attorney sometime
after 7-31-15. The amended motion had Ground 6 added for sworn affidavit of
Malcolm Carter. Attorney still didn't respond to Petitioner's letters. Attorney just
stated in letter for Petitioner to return certificate of service/un-notarized oath
ASAP. Counsel also stated if Petitioner had questions contact by email or by
phone. See July 31, 2015 letter, See: Ex. "E". which was from someone that works
in his firm. (Note: Petitioner does not have authority to utilize E-mail at this
facility, and Mr. Bernstein was aware that Petitioner can only make a legal call to
Mr. Bernstein only if it is prearranged by Mr. Bernstein.)
Petitioner immediately. wrote letter informing attorney that he is incarcerated
he has no e-mail and the only way he could speak to attorney of he set up legal call
at prison facility, or attorney respond back to his letter.

Case 1:17-cv-00" '-tv1W-CJK Document 1 Filed 08' 17 Page 35 of 48
Case: 19-10428 Date Filed: 10/04/2019 Page: 46 of 566

Petitioner also received letter from family member that they can never get a

hold of Mr. Bernstein because he's never in his office, however that they will keep
calling to check, and leaving messages for Mr. Bernstein to contact Petitioner as
soon as possible.
The next time Petitioner received a letter from attorney was after 6-28-16
when Petitioner's 3.850 got denied. See: EX. "F"
On 6-20-16, Mr. Bernstein ended his representation and abandoned Petitioner
by filing no notice of appeal, nor informed Petitioner of status of 9.141, which left
Petitioner to prepare his appeal pro se to the appellate courts. See: 6-28-16 Letter.
See: Ex. "F".
Petitioner sought and requested all papers from Mr. Bernstein to be able to
appeal Court decision, which attorney did so within a letter. In letter attorney
mentioned that they have also enclosed all copies of all motions, answers and
Court orders that petitioner may need to appeal court's decision. See: July 18, 2016
Letter. See: Ex. "G".
Means attorney never informed Petitioner in any type of fashion of motions,
answers Court order and felt it was very important for Petitioner to know in
appealing matter.
On March 29, 2017, April 5, 2017, April 21, 2017, when Petitioner was at his
last step in District Court when his motion for rehearing, rehearing enbanc and
written opinion was pending in March. Petitioner realized he had to calculate
federal time, and that there were no were in documents of status of 9.141.
Petitioner was under impression that 9.141 could still be active because attorney or
courts never informed him of it ever being denied. So Petitioner wrote attorney
repeatedly and begging attorney for this information. Also, Petitioner mentioned in
his April 21, 2017, letter to attorney, how he recently observed by going through
motions, answers and Court orders that attorney forwarded to Petitioner after he

Case 1:17-cv-00(MMW-CJK Document 1 Filed 08"—‘7 Page 36 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 47 of 566

ended his representation, that there were other matters in Petitioner's case, that Mr.
Bernstein didn't inform him of duLuig his representation. Petitioner also asked
attorney to please not ignore his letters like he did when Mr. Bernstein was
representing him in his case. See: Ex. "L" 4-5-17 Letter, 4-21-17 Letter. Petitioner
also made a Notice of inquiry to Court See 5-15-17. See: Ex. "H".
Around 4-21-17 Petitioner became aware that Attorney David Jay Bernstein
subsequently filed an amended motion 3.850 in July 23, 2015.
The motion was dismissed without prejudice as partially insufficient for
failing to include the required oath and entered to refilling of amended motion
containing a proper oath within sixty (60) days. Petitioner observed that Mr.
Bernstein missed the 60 day limitation to refile, which resulted in Petitioner's 2
year limitation expiring for 3.850, which means Petitioner one year limitation for
Federal time ran out, if it was any effect.
Attorney later on put in a motion of enlargement on 2-3-16, when he became
aware and explaining to Court how his excusable neglect due to personal matters
caused this to happen. See: EX. "K" Motion of Enlargement.
Note: Attorney never informed Petitioner of these matters in his case during
the time of his representation. On 7-31-15 attorney send letter to Petitioner just to
sign certificate of service/un-notarized oath and stated nothing else. See: EX. "E":
7-31-15 letter. Petitioner became aware when he went through the motion, Court
orders, and answers that attorney never sent him or informed of during
representation. See: EX. "G": 7-18-17 letter, See: EX. "L": 4-21-27 letter.
The state circuit court summarily denied all six grounds, June 20, 2016,
David Jay Bernstein again abandoned Petitioner and filed no notice of appeal, nor
informed Petitioner of the status of the 9.141.
On May 16, 2017 Petitioner finally received a letter from Mr. Bernstein
informing him of the status of the 9.141, which attorney responded to Petitioner's

Case 1:17-cv-00 f -MW-CJK Document 1 Filed 08 17 Page 37 of 48
Case: 19-10428 Date.Filed: 10/04/2019 Page: 48 of 566

April 21, 2017 letter. See: EX. "J". On May 18, 2017, prior to Petitioner filing a
pro se initial brief the First DCA notified Petitioner that the 9.141 had been denied
December 10, 2014, See: EX. "I ". Lionel Robinson, 152 So.3d 571 (Fla. 1st DCA
2014). Petitioner states that he received the notification of the denial of his 9.141,
more than 2 years after it was denied. On February 22, 2017, the First DCA
affirmed the circuit court's decision denying the Rule 3.850 motion without a
written opinion, March 31, 2017 the First DCA denied Petitioner's rehearing
enbanc. The mandate issued April 18th 2017. Since there was no written opinion,
the First District Court of Appeal is the highest appellate court having jurisdiction
of Florida.
Further, Petitioner states that the State Court and Mr. Bernstein delayed
more. than 2 years in providing Petitioner Notice of its denial of his 9.141 petition
for Writ of Habeas Corpus. Petitioner states that he could not reasonably be
expected to have filed his federal habeas petition, while under impression that his .
9.141 petition was still active.
Petitioner commenced the instant federal habeas action onl-SI

2017 after

having properly exhausted all available State remedies/requirements.
Pursuant to the requirements set forth in 28 U:S.C. 2244, as amended by the
Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), Pub. L. No.
104-132, 110 Stat. 1214, which became effective on April 24, 1996, a one-year
period of limitation applies to the filing of a habeas petition by a person in custody
pursuant to a state court judgment. The limitation period runs fi-orn the latest of:
the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
the date on which the impediment to filing an application created by
State action in violation of the Constitution or laws of the United States is
removed, if the applicant was prevented from filing by such State action;

--\
MW-CJK Document 1 Filed 08"
17 Page 38 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 49 of 566

Case 1:17-cv-00

the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized by the
Supreme Court and made retroactively applicable to cases on collateral review; or
the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence. Section
2244(d)(1).
Under federal law, the judgment becomes final for purposes of
2244(d)(1)(A) upon expiration of the 90-day period in which a defendant may seek
direct review of his conviction in the United States Supreme Court. The 90-day
period runs from the date of entry of the judgment sought to be reviewed.
See Chavers v. Seev, Fla. Dep't of Corr., 468 F.3d 1273, 1275 (11th Cir. 2006).
Federal Rule of Civil Procedure 6(a) provides that "[Uri computing any period of
time prescribed or allowed by . . . any applicable statute, the day of the act, event
or default from which the designated period of time begins to run shall not be
included." Fed. R. Civ. P. 6(a); see also Washington v. United States, 243 F.3d
1299, 1301 (11th Cir. 2001) (Rule 6 applies to calculation of one-year statute of
limitations under AEDPA). Here, the 90-day period for seeking certiorari review
was triggered by the First DCA's affirmance of Petitioner's conviction, on October
17, 2013, and it expired 90 days later, on January 15, 2014. Therefore, the statute
of limitations began to run on January 16, 2014, the day after the 90-day period for
Petitioner to file a petition for review in the United States Supreme Court expired.
Petitioner had one year from that date, or until January 15, 2015, to file his 2254
petition. See Downs v. McNeil, 520 F.3d 1311, 1318 (11th Cir. 2008) (limitations
period should be calculated according to "anniversary method," under which
limitations period expires on anniversary of date it began to run) (citing Ferreira
v. Dep't of Corr., 494 F.3d 1286, 1289 n.1 (11th Cir. 2007)). Petitioner did not file

39
IK
(M7 Pge
'11WW-CJ
(
8
0
0
-0
d
v
D
e
-c
il
7
F
:1
f 48
Case 1
c:ument 1
ate o
0 of a566 o
D
5
:
8
e
2
g
4
a
0
d
P
e
-1
9
Fil
Case: 19
10/04/201

ly unless

e
re, it is untim
fo
re
e
th
;
5
1
0
5, 2
re January 1

on on or befo
ti
ti
e
p
l
ra
e
d
.
his fe
l limitations
nder it timely
ra
e
re
d
d
n
fe
a
e
ly
th
p
f
p
o
ing
iples a
quitable toll
e
e
tolling princ
to
d
e
tl
ti
n
nt him on th
e
is e
s
e
re
h
p
s
re
rt
e
to
s
s
a
stein
Petitioner
vid Jay Bern
to
a
D
y
e
rn
o
tt
A
d to respond
d
e
e
il
in
fa
ta
"
re
in
e
te
h
s
ern
tates
David Jay B
period. He s
s
one
te
ta
s
r
e
n
o
's family ph
r
etiti
e
P
n
.
o
g
ti
in
ti
d
e
e
P
e
c
ro
and
Rule 3.850 p
d concerns,
n
a
s
ie
ar federal
ir
e
u
y
q
1
in
's
,
r
s
e
r
e
n
o
tt
titi
oner's le
rning the Pe
e
c
n
o
any of Petiti
c
n
o
ti
ta
t upon any
n
s
e
a
s
re
e
r
b
p
a
e
r
r
e
e
n
r
o
Petiti
his enti
iled to keep
fa
calls during
in
te
s
rn
e
pressed his
B
x
y
e
a
e
J
h
r
id
e
v
a
ft
a
D
nly
ttorney
asserts that o
r
e
n
deadline". A
o
ti
ti
e
P
.
ernstein in
ase
B
c
y
is
a
h
J
in
id
s
v
n
a
tD
ecisio
laint agains
p
a
developing d
m
o
c
a
r
a
B
initially file
a
in
id
r
te
s
lo
rn
F
e
e
B
Jay
e to th
5, did David
1
intent to fil
1
N
f
o
ry
a
11, 2015 the
nu
a
J
ry
a
in
ru
b
d
e
n
F
a
.
,
n
er o
f 2014
and thereaft
s
to
November o
u
rp
o
C
s
a
e
ab
tein's failure
s
H
f
rn
o
e
t
B
ri
y
w
a
J
r
vid
n fo
Attorney Da
d
9.141 petitio
t
a
th
s
e
u
rg
a
the filing an
er
f
n
o
o
r
ti
e
ti
n
e
o
P
ti
.
n
ti
o
e
oti
eP
Rule 3.850 m
e to notify th
le
r
u
il
a
f
d
n
a
t,
d failed to fi
n
n
e
a
m
s
n
u
o
rp
d
o
n
a
C
b
s
ea
te, a
r writ of Hab
d
communica
fo
n
o
ti
ti
e
p
templated an
41
n
o
.1
c
9
s
e
a
th
w
f
h
o
ic
l
wh
enia
ary 11, 2015
status and d
ru
and
b
e
F
n
a
th
r
ne
, Petitioner,
o
in
o
s
te
s
n
o
rn
ti
e
o
B
m
y
Ja
50
the Rule 3.8
orney David
tt
a
n
e
e
tw
e
b
nt
the agreeme
in
d
o
to
rs
e
d
n
u
le tolling.
b
a
it
u
q
e
tatute of
s
to
a
im
is
h
4
s
4
e
2
tl
2
.C.
ister, enti
in 28 U.S
d
ie
Petitioner's s
if
c
e
p
s
d
) does not
io
(d
r
4
e
4
p
2
e
2
m
ld
ti
e
e
has h
"Because th
reme Court
p
u
S
e
th
r,
a
. Warden,
lb
v
a
n
le
o
o
ti
C
ic
d
."
s
e
ri
s
ca
not a ju
appropriate
n
a
limitations,
in
g
in
ll
olland v.
le to
H
b
g
a
it
in
u
it
q
c
e
(
f
)
o
014
cation
11th Cir. 2
(
7
bar the appli
5
1
1
,
0
5
10)). "[A]
11
0
d
2
(
.3
0
F
3
8
1
6
d
7
2
d.
rison,
49, 177 L. E
5
2
Ga. State P
t.
C
.
S
0
has been
e
13
h
,
t
5
a
4
6
th
,
)
1
1
3
(
6
ows
0 U.S.
nly if he sh
o
g
Florida, 56
in
ll
to
le
nce stood
ab
ta
s
it
u
m
q
u
c
e
ir
c
to
d
ry
e
ina
entitl
ome extraord
s
t
petitioner is
a
th
)
(2
d
49. As an
, an
6
y
t
tl
a
n
e
.
ig
.S
il
U
d
, 560
rights
." Holland
pursuing his
g
in
il
f
ly
e
xceptional
m
e
ti
d
d
n
te
a
n
e
e
r
v
a
r
e
to
and pr
is "limited
g
in his way
in
ll
to
le
b
uita
remedy, eq
y
r
a
in
d
r
o
a
extr
Yd

Case 1:17-cv-00/M-MW-CJK Document 1 Filed 0817 Page 40 of 48
Case: 19-10428 Date Filed: 10/04/2019 Page: 51 of 566

circumstances and typically applied sparingly." Cadet v. Fla. Dep't of Corr., 742
F.3d 473, 477 (11th Cir. 2014).
Equitable tolling is assessed on a case-by-case basis, considering the specific
circumstances of the case. Hutchinson v. Florida, 677 F.3d 1097, 1098 (11th Cir.
2012); see Holland, 560 U.S. at 649-50 (clarifying that the exercise of a court's
equity powers must be made on a case-by-case basis). A petitioner has the burden
of establishing his entitlement to equitable tolling; his supporting allegations must
be specific and not conclusory. Hutchinson, 677 F.3d at 1099. "The diligence
required for equitable tolling purposes is reasonable diligence, not maximum
feasible diligence." Holland, 560 U.S. at 653; see also Smith v. Comm'r, Ala.
Dep't of Corr., 703 F.3d 1266, 1271 (11th Cir. 2012) (per curiam)
(acknowledging petitioners are not required "to exhaust every imaginable option,
but rather to make reasonable efforts"). Determining whether a factual
circumstance is extraordinary to satisfy equitable tolling depends not on how
unusual the circumstance alleged to warrant tolling is among the universe of
prisoners, but rather how severe an obstacle it is for the prisoner endeavoring to
comply with AEDPA's limitations period: Cole, 768 F.3d at 1158 (quotation marks
and citation omitted).
"[Equitable] [t]olling based on counsel's failure to satisfy AEDPA's statute
of limitations is available only for 'serious instances of attorney misconduct."'
Christeson v. Roper, U.S.

___, 135 S. Ct. 891, 894, 190 L. Ed. 2d 763 (2015)

(quoting Holland, 560 U.S. at 651-52).
In Thomas v. Attorney Gen., Fla., 795 F.3d 1286 (11th Cir. 2015), the
Eleventh Circuit articulated the types of attorney misconduct that may serve as an
extraordinary circumstance to support a claim to equitable tolling:
[W]e have explained that attorney negligence, and even gross negligence or
recklessness, is not an extraordinary circumstance; "abandonment 'of the attorney-

Case 1:17-cv-00E-\MW-CJK Document 1 Filed 08r-N7 Page 41 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 52 of 566

client relationship . . . is required." Cadet, 742 F.3d at 481. At the same time, the
factors we had identified in Holland I-"bad faith, dishonesty, divided loyalty, [and]
mental impairment," 539 F.3d at 1339-may still serve as extraordinary
circumstances that support a claim to equitable tolling. On remand, therefore, the
district court must decide whether [petitioner's attorney's] conduct amounted to an
abandonment of [the petitioner], as that concept has developed in Holland
Maples, and Cadet, or whether her conduct nonetheless amounted to serious
instances of attorney misconduct warranting equitable tolling. Thomas, 795 F.3d
1286, 2015 WL 4597532, at *5 (citing Cadet v. Fla. Dep't of Corr., 742 F.3d
473 (11th Cir. 2014); Holland v. Florida (Holland I), 539 F.3d 1334 (11th Cir.
2008), rev'd on other grounds, 560 U.S. 631, 130 S. Ct. 2549, 177 L. Ed. 2d
130 (2010) (Holland II); Maples v. Thomas, U.S. ___, 132 S. Ct. 912, 181 L. Ed.
2d 807 (2012)).
Petitioner states that his attorney's conduct amounted to abandonment of the
attorney client relationship, and the State Court and attorney's actions in failing to
notify Petitioner of the denial of his 9.141 until 3 years later warrants equitable
tolling. Further, Attorney David Jay Bernstein's "failings were so egregious as to
constructively sever the agency relationship between [David Jay Bernstein] and
[himself], thus excusing [him] from bearing the risk of his attorney's mistake." See;
Damren v. Florida, 776 F.3d 816, 822 (11th Cir. 2015); see also Cadet, 742 F.3d
at 481 (holding that under "well-settled principles of agency law, . . . a petitioner
bears the risk of attorney error unless his attorney has essentially abandoned him
and thereby severed the principal-agent relationship" (citing Maples, 132 S. Ct. at
922-23)).

Case 1:17-cv-00
MW-CJK Document 1 Filed 08c- 17 Page 42 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 53 of 566

Equitable Tolling Time
A habeas petitioner like Petitioner is entitled to equitable tolling on Ilk
if
shows (1) that he has been pursuing his rights diligently; and (2) the
son:
extraordinary circumstances stood in his way and prevented timely filing.
-- **1011an,
v. Florida, 560 US 631, 649, 130 S. Ct. 2549, 177 L. Ed. 2d 130 (2010).
When a prisoner asks for equitable tolling because of a lawyer's
the
question is usually whether the attorney effectively abandoned the client,
/ acing
the circumstances beyond the client's control such that the lawyer's errors
-t-e not
attributable to the client. Id.
When answering that question a Court considers, among other
whether the lawyer withdrew from the representation, renounced his

txangs,

of e as
counsel, his role as counsel, "utterly shirked his responsibilities, or wallc[ecl)
away
473
484 (11th Cir. 2014). A lawyer's willful disregard of the client's instructions
_
"
something in court is surely relevant. Id. a lawyer's bad faith, dishonesty, fti, _
cied
loyalty, or mental impairment may also serve as extraordinary circurn
,
. e
s.
Thomas, 795 F.3d at 1292.
from the attorney-client relationship." Cadet v. Florida Dept. of Corr., 42 F.

An "extraordinary circumstance" that stands in the way of Petit i

orier,s
completion of a State application for relief may toll the federal habeas clock
Knight v. Schofield, 292 F.3d 709, 711 (11th Cir. 2002); see also Hollinger v see
. sec.
Dept. of Corr., 334 F. App'x 302, 307 (116 Cir. 2009) (noting that a "State Court's
8-month delay in providing [Petitioner] notice of its denial of his rule 3.850 motion
eroded nearly two-thirds of [his] one-year limitations period and left [him] c)tily 12
days on his AEDPA clock"). This is so bemuse "[t]he law is clear that [the
Petitioner cannot] file a federal motion until his pending state application [is]
denied." See Knight, 292 F.3d at 711; see also 28 USC 2254(b)(-(c).

Case 1:17-cv-00(MMW-CJK Document 1 Filed 08.17 Page 43 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 54 of 566

A district Court has discretion to conduct an evidentiary hearing. See Lugo
v. Sect. Florida Dept. of Corr., 750 F.3d 1198, 1206 (11 th Cir. 2014). The burden is
on the Petitioner to show the need for an evidentiary hearing. Chavez v. Sect.
Florida Dept. of Con., 647 F.3d 1057, 1060 (11th Cir. 2011). The allegations must
be factual, specific, and not conclusory. Id. In deciding whether to hold an
evidentiary hearing on equitable tolling, a federal court must consider whether
such a haring could enable an applicant equitable tolling. See id. Courts have held
evidentiary hearings if there are circumstances consistent with a Petitioner's
petition under which he would be entitled to a finding of equitable tolling. See
Laws v. Lamarque, 351 F.3d 919, 924 (9th Cir. 2003). For example, the Eleventh.
Circuit has remanded a habeas petition for an evidentiary hearing to find out
exactly why a lawyer delayed in filing a petition. See Thomas, 795 F.3d at 1296.
The Attorney David Jay Bernstein undertook to represent Petitioner on his
Rule 3.850 motion but instead abandoned his obligation of the contract between
him and the Petitioner by the filing of the 9.141 petition for writ of habeas corpus
and didn't file his 3.850 motion until nearly a day before his federal one year
deadline had elapsed. The Petitioner's argument is his Attorney's failure to
communicate, by ignoring Petitioner's contact and oral agreements, by ignoring
Petitioner's letters of inquiries or concerns about obligations, during Mr.
Bernstein's entire representation, which Mr. Bernstein's bad faith and utterly
shirked all his professional responsibilities shows attorney abandonment of the
client relationship and Petitioner.
Coupled with Petitioner's liberally construed pleading, one can reasonably
infer that Attorney David Jay Bernstein abandoned the representation for a period
of time, and "utterly shirked" his professional responsibilities to file a Rule 3.850
motion within the one-year federal deadline as understood and contemplated in the
agreement between the Attorney, petitioner and Petitioner's family.

Case 1:17-cv-00(MMW-CJK Document 1 Filed 08.17 Page 44 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 55 of 566

Petitioner points out that his attorney David Jay Bernstein was only
obligated to file Petitioner's 3.850. However, on November 12, 2014, he instead
of filed the 9.141 petition for writ of habeas corpus on November 12, 2014, and
effectively abandoned and violated the contract and oral agreement between him
and the Petitioner. The Petitioner states that his federal time would have tolled;
leaving him with 64 days to preserve his federal time if the Attorney David Jay
Bernstein would have filed the 3.850 on 11-12-14, instead of the 9.141 petition for
writ of Habeas Corpus. Furthermore, Petitioner asserts he would have been aware
and prepared to timely file his federal habeas corpus if his attorney would have
stuck to his obligations.
Petitioner states it is important to develop fully the critical findings of fact the when, the "what, the how, and most importantly, the why" of the scope of Mr.
Bernstein's representation from its inception and the reasons he did not file the
Rule 3.850 motion as obligated until . February 11, 2015. Petitioner humbly
requests the Magistrate judge to recommend an evidentiary hearing.
A district Court has discretion to conduct an evidentiary hearing. See Lugo
v. Sect. Fla. Dpt. Of Corr., 750 F.3d 1198, 1206 (11th Cir. 2014). The burden is on
the Petitioner to show the need for an evidentiary hearing. Chavez v. Sect. Fla.
Dept. of Con., 647 F.3d 1057, 1060 (11th Cir. 2011). The allegations must be
factual, specific, and not conclusory. Id. in deciding whether to hold an evidentiary
hearing on equitable tolling, a federal Court must consider whether such a hearing
could enable an applicant equitable tolling. See Id. Courts have held evidentiary
hearings of there are circumstances consistent with a Petitioner's petition under
which he would be entitled to a finding of equitable tolling. Sec Laws v.
Lamarque, 351 F.3d 919, 924 (9th Cir. 2003). For example, the Eleventh Circuit
has remanded a habeas petition for an evidentiary hearing to find out exactly why a
lawyer delayed in filing a petition. See Thomas, 795 F.3d at 1296.
gio

Case 1:17-cv-00(ThMW-CJK Document. 1 Filed 08,,
17 Page 45 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 56 of 566

The Attorney David Jay Bernstein undertook to represent Petitioner on his
Rule 3.850 motion but instead filed a 9.141 petition for writ of habeas corpus and
didn't file his 3.850 motion until nearly a day before his federal one year deadline
had elapsed. The Petitioner's argument is his Attorney's failure to communicate,
bad faith and utterly shirked his professional responsibilities also Mr. Bernstein's
failure to inform Petitioner about the status of the 9.141 (petition for writ of habeas
corpus) which was filed November 12, 2014, and the other developing decisions in
his case show abandonment to include Petitioner made many pleas by letters to Mr.
Bernstein for the status of 9.141 petition., which Mr. Bernstein failed to
communicate and ignored all Petitioner's letters during entire representation.
Petitioner asserts that his attorney detached his self from any trust relationship with
Petitioner and abandoned him.
Coupled with Petitioner's liberally construed pleading, one can reasonably
infer that Attorney David Jay Bernstein abandoned without notice the
representation of the 9.141 for a period of time, and "utterly shirked" his
professional responsibilities to file a Rule 3.850 motion within the one year federal
deadline as understood and contemplated in the agreement between the Attorney,
Petitioner, and Petitioner's family.
Further, the State's and Attorney Mr. Bernstein's failure and delay in timely
providing Petitioner notice of the denial 9.141 of the petition for writ of habeas
corpus until nearly 3 years after it had been denied on December 10, 2014 show
extraordinary circumstances warrant equitable tolling time.
Petitioner states it is important t develop fully the critical findings of fact —
the when, the "what, the how, the reason Mr. Bernstein, file the 9.141 which wasn't
in the contract, and most importantly, the why" of the scope of representation from
its inception, and the reasons did not file the Rule 3.850 motion until February 11,
2015. Petitioner asserts that he proffered enough facts and evidence that shows

Case 1:17-cv-00/M-MW-CJK Document 1 Filed 0817 Page 46 of 48
Case: 19-10428 Date Filed: 10/04/2019 Page: 57 of 566

extraordinary circumstances that warrants equitable tolling time. Therefore,
Petitioner believes that a evidentiary hearing is necessary because there are basis
that exist to believe that further inquiry would help Petitioner prove entitlement to
equitable tolling. Petitioner humbly requests the Magistrate judge recommend an
evidentiary hearing.

Case 1:17-cv-00r\MW-CJK Document 1 Filed 08r\7 Page 47 of 48
Case: 19-1u428 Date Filed: 10/04/2019 Page: 58 of 566

AO 241
(Rev. 10/07)

(2)

The time during which a properly filed application for State post-conviction or other collateral review with
respect to the pertinent judgment or claim is pending shall not be counted toward any period of limitation
tinder this subsection.

Therefore, petitioner asks that the Court grant the following relief

--fo <1/40,A4 ctm.‘54.

Pe_Wittd0ce.

t 4,gy i-W5Pcfsk3
).k .ctizate Ars.) tlicitak:
414A, st4tAK-e /1
Poo QpirAndSi To ae.Vdop

NAura/es

rte, or- *e..

or any other relief to which petitioner may be entitled.

Signature of Attorney (if any)

1 declare (or.certify, verify, or state) under penalty of perjury that the foregoing is true and correct and that this Petition for
Writ of Habeas Corpus was placed in the prison mailing system on

Executed (signed) on

—7

1-7

(month, date, year).

(date).

Signature of Petitioner
If the person signing is not petitioner, state relationship to petitioner and explain why petitioner is not signing this petition.

